                                                           OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 3) Version 2.0
               Reporting Entity: Department of State ‐ OIG
             Month Ending Date: 06/30/2009

                                                           Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau            Recovery Act TAFS             Sub‐Account     Award Type       US Indicator        State Code       Total Obligations   Total Gross 
                                                                   Code (OPTIONAL)                                     (ONLY for grants                          Outlays
                                                                                                                       and cooperative 
No.                                                                                                                      agreements)
      Department of State ‐ OIG   (19‐0530 2009 \ 2010) State ‐                                                                                   $0               $0 
  1                               OIG ‐ Recovery Act
  2
  3
  4
  5
  6
  7
  8
 9
10


                                               Non-Recovery Act Funds Used on Recovery Act Activity
                                               Non-Recovery
            Agency / Bureau         Non‐Recovery Act TAFS            Sub‐Account     Total FY 2009    Total FY 2009     Total FY 2010      Total FY 2010 
                                                                   Code (OPTIONAL)    Obligations     Gross Outlays      Obligations       Gross Outlays
No.
  1
  2
  3
  4
  5
  6
  7
  8
 9
10




                                                                                                                           State OIG ARRA Monthly Report June 2009.xlsx
                                           OIG Recovery Act Monthly Report
Monthly Update Report Data (sheet 2 of 3) Version 2.0
      Reporting OIG: Department of State ‐ OIG
  Month Ending Date: 6/30/2009

    Recovery Act New Hires                   Flash Reports                       Testimonies:
     Hired (monthly):   0.00            Issued (monthly):      0          Provided (monthly):      0

  Hired (cumulative):   0.00          Issued (cumulative):     0       Provided (cumulative):      0


          Complaints              Whistleblower Reprisal Allegations           Investigations            Audits / Inspections / Evaluations / 
                                                                Monthly Data
           Received:      0                    Received:       0                    Opened:        0                    Initiated:     0
                                              Accepted:        0                      Active:      0                  In Process:      1
                                                                            Pending Decision:      0                 Completed:        0

                                                                       Closed without Action:      0
                                                                                 Accepted for 
                                                                                                   0
                                                                                 Prosecution:
                                                                                      Denied::
                                                                          Prosecution Denied
                                                                          Prosecution              0

                                                                                  Referred for 
                                                                                                   0
                                                                       Alternative Resolution:

                                                       Cummulative Data Since 2/17/09

           Received:      0                      Received:     0       Closed without Action:      0                 Completed:        0

                                                                                 Accepted for 
                                                 Accepted:     0                                   0
                                                                                 Prosecution:
                                                                          Prosecution Denied:      0

                                                                                  Referred for 
                                                                                                   0
                                                                       Alternative Resolution:




                                                                                             State OIG ARRA Monthly Report June 2009.xlsx
                                           OIG Recovery Act Monthly Report
Monthly Update Report Data (sheet 3 of 3) Version 2.0
     Reporting OIG: Department of State ‐ OIG
 Month Ending Date: 06/30/2009

       No.                  OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
        1
        2
        3
        4
        5
        6
        7
        8
        9
       10

       No.                              OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for the Future)
        1           Update Hotline posters and website reporting mechanisms to facilitate reporting of ARRA-related allegations
        2           Initiate
                    In itiate audits
                              audits of Department
                                        Department and
                                                   and IBWC tracking
                                                            tracking and
                                                                     and oversight of ARRA funding
        3           Review open recommendations for lessons learned and best practices on contracts/grants/acquisitions
        4           Incorporate ARRA-related fraud awareness issues into audit and investigative briefings and training
                    Conduct survey of contract and grant staffing and qualifications, in coordination with RATB and IG
        5
                    community
        6
        7
        8
        9
       10




                                                                                                State OIG ARRA Monthly Report June 2009.xlsx
